*■

2ft

_ (C o r /|
U oo

In the
Supreme Court of the United States
No.

Richard Andrew Poplawski,
Petitioner,
v.
Secretary,
Pennsylvania Department of Corrections,
Respondent.

Petition for a Writ of Certiorari

On Petition for a Writ of Certiorari
to the Third Circuit Court of Appeals

Richard A. Poplawski, pro se
S.C.I. Phoenix, #07354
1200 Mokychic Drive
Collegeville, PA 19426

November

su

., 2020

Questions Presented
I. In the Third Circuit, the Prison Litigation Reform Act has been applied to require
separate, duplicative fees from joined litigants. But the district court made a one-time
exception for the petitioner; because of this, the Court of Appeals dismissed. Can courts
strategically exempt litigants from the law to thwart test cases? or Can this Court review
an ostensibly favorable ruling that actually injured the petitioner?

II. The petitioner adhered to the PLRA and Federal Rules of Appellate Procedure. He
received leave to appeal in forma pauperis, though his coappellant did not. Did the
Third Circuit err by dismissing the appeal?

III. The fee provisions of the PLRA, as unanimously interpreted by this Court in 2016,
apply on a “per-case” basis. But policy concerns have led many lower courts to continue
imposing “per-litigant” fees. Does the PLRA demand separate, duplicative fees from
prisoners proceeding jointly?

TV. Neither prisoners nor indigents are suspect classes under an Equal Protection analy­
sis, but there must be a rational basis for defining classes subject to legislation. Since the
PLRA already assures that all fees will he paid in full (thereby satisfying the statute’s
deterrence objective), does imposing excessive fees unduly burden incarcerated paupers
in violation of the Fifth Amendment?

Parties
This case originated as a class-action lawsuit brought on behalf of all current and
future death-sentenced prisoners in the Commonwealth of Pennsylvania. The represent­
ative plaintiffs are Anthony Reid, Ronald Gibson, Mark Newton Spotz, Jermont Cox,
and Ricardo Natividad.
The class is represented by attorneys Bret Grote of the Abolitionist Law Center;
Witold J. Walczak of the ACLU of PA; Susan M. Lin, Mark D. Taticchi & Wilson M.
Brown of separate private law firms; and David Fathi & Amy Fettig of the ACLU's
National Prison Project.
The defendants are John E. Wetzel, Secretary of the PA Department of Correct­
ions; and K. Jaime Sorber, Superintendent of State Correctional Institution Phoenix
(where all class members are housed). They are sued in their official capacities and are
represented by the Department's internal Office of Chief Counsel.
About 65 to 70 class members—a majority—emerged as express objectors to the
settlement agreement reached by the above parties. Objectors' names are recorded on
the docket at #i8-CV-0176. The Hon. Chief Judge John E. Jones, III, presided.
Objectors Richard A. Poplawski and H. Miguel Robinson filed a joint appeal to
the Third Circuit Court of Appeals.
Poplawski is the petitioner.

ii

♦

Table of Contents
Questions Presented

1

Parties

11

Table of Contents

111

Table of Authorities

IV

Petition for a Writ of Certiorari

l

Orders Below

l

Jurisdiction

l

Statutory and Constitutional Provisions Involved

l

Statement of the Case

2

Reasons for Granting the Writ

3

I. The petitioner was strategically exempted from the law
—then summarily dismissed—to stonewall his challenge.

3

II. The petitioner’s appeal was erroneously dismissed.

5

III. The PLRA does not require duplicative filing fees.

5

IV. Imposing excessive fees violates Equal Protection as
afforded by the Fifth Amendment.

9
n

Conclusion
Appendix

Appx

:;

(+ Certificate of Service)
(+ Certificate of Mailing)
iii

•A'

Table of Authorities

♦

Cases
Bouriboune v. Berge, 391 F.3<3 852 (C.A.7 2004)

9

Bruce v. Samuels, 136 S. Ct. 627 (2016)

9,11

Burke v. Helman, 208 F.R.D. 246 (C.D. II. 2002)

6

Hagan v. Rogers, 570 F.3d 146 (C.A.3 2009)

3, 8, 9,11

In re Prison Litigation Reform Act, 105 F.3d 1131 (C.A.6 1997)

A6

Jones v. Bock, 549 U.S. 199 (2007)

passim

Rinaldi v. Yeager, 384 U.S. 305 (1966)

9,10,11

United States ex rel. Att'y Gen. v. Delaware & Hudson Co.,
213 U.S. 366 (1909)

10

Constitutional Provisions
Fifth Amendment to the U.S. Constitution

i, U9

Eighth Amendment to the U.S. Constitution

2

Fourteenth Amendment to the U.S. Constitution

2,9

Statutes and Rules
Prison Litigation Reform Act (generally)

passim

28 U.S.C. § 1254(1)

1

28 U.S.C. § 1331

2

28 U.S.C. § 1343

2

28 U.S.C. § 1913

7

28 U.S.C. § 1915(h) etseq.

passim

28 U.S.C. § 1915(f)(2)

8

3d Cir. Local Appellate Rule 3.2

7

iv

Petition for a Writ of Certiorari
Richard A. Poplawski, pro se, respectfully petitions for a writ of certiorari to the
Third Circuit Court of Appeals.
Orders Below
On April 9, 2020, the district court approved the settlement agreement. Reid et
al. v. Wetzel et al, #i8-CV-oi76 (M.D. Pa. 2018). Doc. 144- The court granted the app­
ellants' joint motion to apportion appellants fees on August 18, 2020 (attached as
Appendix A).
The order dismissing the appeal was filed on August 20, 2020 (attached as App­
endix B). Reid et al v. Sec'y, Pa. Dep't ofCorr., #20-2115 (C.A.3 2020).
Jurisdiction
Because the Third Circuit's final order was entered on August 20, 2020, this pet­
ition is due by November 18, 2020. An attached certificate of mailing proves timeliness.
This Court has jurisdiction over this petition under 28 U.S.C. § 1254(1).
Statutory and Constitutional Provisions Involved
This case involves the fee provisions of the Prison Litigation Reform Act, 28
U.S.C. § 1915(b):
(1) [I]f a prisoner brings a civil action or files an appeal in forma pauperis, the
prisoner shall be required to pay the full amount of a filing fee.
(3) In no event shall the filing fee collected exceed the amount of fees permitted
by statute for the commencement... or an appeal of a civil action[.]
The petitioner also raises an Equal Protection challenge grounded in the Fifth
Amendment to the U.S. Constitution.
1

Statement of the Case
In January of 2018, death-sentenced prisoners in Pennsylvania brought a classaction lawsuit in federal court, under 28 U.S.C. §§ 1331 and 1343, claiming violations of
the Eighth and Fourteenth Amendments. Eventually, a settlement agreement was
reached. In April 2020, the district court approved the deal over the opposition of class
members.
Two objectors (petitioner Poplawski and Robinson) timely filed a joint notice of
appeal. The appellants then filed separate motions for proceed in forma pauperis and a
"Joint Motion for Apportionment of Appellate Fees" in the district court. Poplawski's
IFP motion was granted right away.
The appeal was docketed in the Third Circuit. Then things went haywire.
The district court actually granted the fee-sharing motion on August 18, 2020.
Two days later, the entire appeal was dismissed by the Third Circuit because Robinson
had not yet secured IFP approval.
The petitioner did not learn of these last two developments until mid-October
when he received a letter from the Clerk of the Third Circuit.1 (He therefore lost two
months off the cert, clock.)
Poplawski scrambled to assemble this petition to challenge the Third Circuit's
dismissal and to seek clarification of the law on fee apportionment under the PLRA.

1. The district court's order does state that the clerk "shall mail" a copy to the appellants. This
did not happen (which can he proven by DOC legal-mail logs). Poplawski found out about it
when he was served with plaintiff-appellees' opposition to an en banc hearing in the Third
Circuit.
The letter from the Third Circuit's clerk pertained to that application for an en banc
hearing on apportionment which the appellants filed in mid-September without even knowing
the entire appeal had been dismissed. The petitioner has been operating in the blind.
2

Reasons for Granting the Writ
This is a real petition for certiorari.
Many lower courts have been torturing the plain text of the PLRA to find that the
Act requires duplicative fees from joined litigants. Such an interpretation:
• has been the subject of a long-standing rift among Circuit Courts of Appeal;
• contradicts this Court's recent pronouncement on the provisions at issue; and
• adversely impacts the rights of vast, yet marginalized and vulnerable, population.
But there's a funky twist: the petitioner raised the issue in the district court and
the judge ruled in his favor—against binding precedent of the Third Circuit. Then the
appeal was immediately dismissed. Was there an intent to keep the underlying question
from reaching this Court? Can the Justices reach through that unusual procedural
posture to find the issue and set all American courts aright?
I. The petitioner was strategically exempted from the law—then summarily
dismissed—to stonewall his challenge.
The controlling interpretation of the PLRA in the Third Circuit holds that “the
requirement for each prisoner to pay a full fee is simply one price that a prisoner must pay for IFP status under the PLRA.” Hagan v. Rogers, 570 F.3d 146,155 (2009).
As such, petitioner Poplawski expected the lower court to be bound by Hagan to
deny his apportionment motion. He hoped to get a reexamination by the Third Circuit
en banc and then, if necessary, bring it before this Court. Instead, the district judge
either (a) saw the correct interpretation of the law, or (b) strategically bucked precedent
with the aim of smothering a test case in the cradle.
If that were all, the petitioner would have no room to complain. But there’s more.

3

Selective exemption from the law was used like a weapon: under the peculiar circum­
stances of this case, granting that motion actually killed the whole appeal. Because
Poplawski’s coappellant did not secure IFP approval, once apportionment was granted
[illegally?] in the district court, the appeal was dismissed within 48 hours (under the
theory that only half the fee was spoken for?).
Be careful what you wish for: Poplawski received what he sought—only to be
ejected from court on the strength of it. The Third Circuit dismissed the appeal without
offering him the option of proceeding alone—a bizarre occurrence indeed given that, in
every other civil case filed in the circuit since 1997, once a petitioner gains approval to
proceed IFP, the fee is considered satisfied-pending per the PLRA.
Talk about uneven application of federal law! This is a case from the X-Files.
What explains the aberration? Cui bono?
The lower courts “win”: one meritorious appeal disappears without a trace, the
Third Circuit doesn’t have to reevaluate its beleaguered precedent, and courts can con­
tinue charging duplicative per-litigant fees—until another competent prisoner raises a
challenge? at which time the law will be selectively ignored again? How often does this
happen? The truth is out there.
When a bad law (or a valid law operating improperly) routinely injures the citi­
zens, how does the issue ever get reviewed by higher courts if every would-be challenger
gets deprived of standing by means of strategic exemption? And what of the law’s vic­
tims who lack the know-how to gain an exemption for themselves?
Poplawski had the ideal vehicle; he knew it, he was warming it up, and he was
keen on parking it right in front of Cass Gilbert’s marble staircase. Has the Third Circuit
4

Court of Appeals—with help from the Middle District of PA—managed a procedural
finesse to stall the challenge (thereby impeding the prerogative of this Court), in hopes
of preserving their preferred interpretation of federal law?
II. The petitioner’s appeal was erroneously dismissed.
Standing alone, this might not he a cert.-worthy issue because it applies narrowly
to the present parties under unique circumstances that [we hope] are unlikely to recur.
Nevertheless, if the Court agrees to review any of the petitioner’s questions, he would
need to articulate a request for concrete relief. Thus, granting certiorari on this issue
would give the Court an avenue to redress the petitioner’s injury.
Poplawski’s appeal was dismissed under dubious circumstances. He carefully
adhered to the law in every particular and has not been charged with any technical mis­
steps. But filing a motion to preserve his rights triggered an outbreak of procedural
irregularities—happening in two courts simultaneously—that were impossible to counter. Poplawski, a first-time civil litigant who struggled to get his pro se hands on docket
sheets from Death Row, was powerless to prevent the lightning-strike dismissal.
Barring intercession by this Court, that error will stand. The petitioner hopes to
ask for a remand so that he and Mr. Robinson may pursue the original appeal under fee
arrangements to be determined by this Court.
III. The PLRA does not require duplicative filing fees.
In 1996, Congress enacted the Prison Litigation Reform Act to stem the tide of
frivolous litigation generated by legions of incarcerated shoo-flies. Among other sensible
reforms, the Act eliminated the fee waivers that inmates were abusing to clog federal

5

courts with handwritten complaints about insufficiently nutty peanut butter and presid­
ential conspiracies to spy on convicts via toilet bowls (citations omitted).
While largely a success, one part of the Act has proven particularly troublesome
to interpret. “The worst provision ... is the fee assessment and collection procedure ...
[which] refers only to ‘the prisoner’ and neglects to address the case of multi-prisoner
plaintiffs.” Burke v. Helman, 208 F.R.D. 246, 247 (C.D. II. 2002) (internal citation
omitted).
Acting with prescience, Chief Judge Boyce F. Martin, Jr., established procedures
for the Sixth Circuit in a 1997 special administrative order. Among them: “[A]ny fees and
costs . .. shall be equally divided among all prisoners.” In re Prison Litigation Reform
Act, 105 F.3d 1131,1138.
A quarter century later, Chief Judge Martin’s approach is in the minority among
Circuit Courts of Appeal—an unsurprising result to an observer who notes that erecting
ever-higher barriers to courthouse entry might look like worthwhile construction to a
busy federal judge. In time, courts came up with plenty of “enhancements” to the PLRA.
Such judicially created embellishments have withered under the gaze of this
Court. Invoking Mr. Justice Frankfurter to strike down enhanced pleading require­
ments, the Court unanimously declared that judges must never succumb to the tempt­
ations [of] statesmanship” to “depart from the usual practices ... on the basis of
perceived policy concerns.” Jones v. Bock, 549 U.S. 199> 212> 216 (2007).
With that in mind, we turn back to the text: 28 U.S.C. § i9i5Cb)(3) is. clear that
fees shall not be collected in excess of statutory maximums. Neutering § (b)(3) means
surplus dead language in the statute. And statutory surplusage is intolerable. Ew.

6

According to § 1913, fees are to be prescribed by the Judicial Conference of the
United States. In turn, the fee schedule of the Conference notes that “parties filing a
joint notice of appeal... are required to pay only one fee.”; accord 3d. Cir. L.A.R. 3.2
(“When parties have filed a joint notice of appeal,... only one docketing fee [will be]
paid.”).
So, typically, once an appellant authorizes funds to be deducted from his prison
account (in installments per the law), and his IFP motion is approved, the full docketing
fee is accounted-for. Assessing another fee runs afoul of § 1915(b)(3).
Two free men walk into the clerk’s office: John cuts a check to cover the price of a
joint lawsuit; Tony signs the complaint but keeps his wallet shut. What does the clerk
say to Tony?
(a) “We need another full fee from you, sir.”
(b) “You must pay half.”
(c) “You must contribute at least a nickel.”
(d) “Both of you get out.” or
(e) “Thank you. Good luck in Court!”
Given the PLRA’s silence, why should the answer be much different in prison
litigation? Congress could have spoken; they did not. Thus, fees can be shared—equally
or disproportionately. One party can even cover the full fee (the default since our friend
Tony, like Miguel Robinson, neglected to make an arrangement). All that really matters
is what the law requires: that one—just one—fee gets paid.
This prevailing misapplication of the PLRA creates riddles that admit of no
logical answer—another sure sign of flawed statutory interpretation. Under normal cir­
cumstances (i.ewhen district judges apply the erroneous-but-controlling law of their

7

jurisdiction), courts open the door to potentially irrational outcomes. For example, if all
70 class-action objectors had joined this appeal, the filing fee would have been thirtyfive thousand dollars! (Incidentially, do courts ever construe §§ 1915(f)(2)(A) an(f (C)
(re: costs) the same way as the fee provisions? The language is identical.)
Writing only two years after this Court waved a caution flag, the three-judge
panel in Hagan v. Rogers did not even cite Bock. In a badly fractured decision, all three
judges wrote separately on fees. The dissent opined that “[the majority] holding is
incorrect because it violates § 1915(b)(3) and misconstrues (b)(1).” Hagan, 570 F.3d at
164 (Roth, J. concurring and dissenting).
The deciding vote about apportionment was left to Judge Jordan, though he
would not have permitted joinder of the plaintiffs at all (a posture that prompted the
dissent to question his eligibility to pass on the issue. See n.13-):
I find it much harder to agree that multiple prisoners can ... each be compelled
to pay a full filing fee.... The language of the PLRA is reasonably plain in this
regard.... Having multiple prisoners in a single suit, each paying a full fee,
creates an “event” that we are instructed should in no event be created.
Id. at 160-161. (Jordan, J., concurring and dissenting).
Judge Jordan then executed a startling about-face in announcing that he was,
however, “unable to agree with Judge Roth’s resolution of the fee conundrum because it
appears incompatible with the plain language of the PLRA.” Id.
The petitioner respectfully observes that Judge Jordan’s statements seem to be
internally inconsistent. Yet it was these very comments that narrowly decided an im­
portant question of federal law to the severe disadvantage of vulnerable citizens.
As seen in the Great Hagan Debate, the competing interpretations of the PLRA’s
fee provisions are framed by courts as the “per-case” versus the “per-prisoner approach.

8

The Hagan majority relied heavily on the Seventh Circuit’s decision in Bouriboune v.
Berge, in which they assessed duplicative filing fees after finding section [1915] (h)(i)
specifies a per-litigant approach to fees.” 391 F.3d 852, 856 (2004).
But this Court has decided that question the other way. When considering seq­
uential v. simultaneous recoupment of fees under §§ (b) and (2), this Court unanimously
concluded that "the Circuits following the per-case approach ... better comprehend the
statute." Bruce v. Samuels, 136 S. Ct, 627, 632 (2016). It naturally follows that "[t]he
other two paragraphs of § 1915(b) confirm that the subsection as a whole is written from
the perspective of a single case." Id.
Bruce is the coup de grace; it controls our question contra the faction-in-error
among Courts of Appeal. Their position bangs into Bock then bashes smack against
Bruce. Only the People are getting hurt.
IV. Imposing excessive fees violates Equal Protection as afforded by the
Fifth Amendment.
It is undisputed that legislation may impose special burdens on defined classes in
order to achieve permissible ends, and that neither prisoners nor indigents are consid­
ered suspect classes. “But the Equal Protection Clause [of the 14th Amendment] does
require that... the distinctions that are drawn have some relevance to the purpose for
which the classification is being made.” Rinaldi v. Yeager, 384 U.S. 3°5> 3°9 (1966)
(striking down state restitution statute imposing special obligations on prisoners only).
The Fifth Amendment provides the same kind of Equal Protection against actions of the
federal government.
The PLRA was meant to deter frivolous litigation. But even the poorest prisoners

9

no longer receive fee waivers in lower federal courts. So the deterrence objective is satis­
fied because the Act ensures that all fees will be paid in full eventually. Going further to
construe § 1915(b) as a punitive subsection meant to impose extra monetary obligations
on only those prisoners who are certifiably indigent risks “invidious discrimination. Id.
at 310. Under the current scheme, prisoners are taxed because 0/their poverty.
If the PLRA did expressly call for duplicative fees, that might not withstand even
the relatively deferential rational-basis test. Of course, the statute is silent and this Court
is left to scrutinize only the judge-made stylings heaped atop the law like gaudy blue
icing smeared on a pet cat’s birthday cake.
May this Court forgive the petitioner for intentionally conjuring the ghastly
spectre of long-standing, wide-spread, and ongoing constitutional violations against the
poorest citizens at the hands of the federal judiciary. Through certiorari, we face our
fears together. Under God.
Even assuming an Equal Protection challenge were to ultimately fail, the mere
possibility of a meritorious attack on that basis is enough to trigger the doctrine of con­
stitutional avoidance. That is, “[wjhere a statute is susceptible to two constructions, by
one of which grave and doubtful constitutional questions arise and by the other ... such
questions are avoided, [the Court’s] duty is to adopt the latter.” United States ex. rel.
Attorney General v. Delaware & Hudson Co., 213 U.S. 366, 408 (1909).
The petitioner may be presenting it, but the Court must do everything it can to
avoid this question. The issue can be—has been—decided on textual grounds. There s no
need to drop a constitutional nuke on this dead horse.

10

Conclusion
The petitioner hopes that the Justices will not be deterred by the extraordinary,
lawless maneuvers of the lower courts in this case. The controversy is still live and one
citizen is woozy and stinging from his injury.
More importantly, the masses huddled in their prison cells are desperate for
intervention of the Supreme Arbiters on a pure question of law. With humility, with gen­
uine reverence for the dignity, majesty, and power of this Court, the petitioner seeks out
the Final Word.
Courts of Appeal are in embarrassing conflict with one another, and, worse yet,
the majority is wrong. Worst of all, the erroneous position is entrenched and appears to
have partisan defenders who are on alert for potential challengers.
Misapplication of the PLRA's fee provisions has caused untold mischief across the
country . Claims with merit are being embargoed by powerful financial disincentives that
do not exist outside of prison walls. The petitioner mounted an aggressive run against
the blockade, but was thrown out of court, spinning, onto his ear. Absurd outcomes like
that—and $35,000.00 filing fees—signal an underlying error.
In defense of the honorable judges sitting on the lower courts, they haven't had
much time to come into conformity with Bruce v. Samuels—which, though less than a
millimeter off-the-bullseye, did not explicitly decide this question. The trio of Rinaldi,
Bock, and Bruce provides uncommonly strong guidance; but a specific directive is evi­
dently needed to secure fairness and uniformity in application of federal law.

11

WHEREFORE, granting the writ of certiorari is appropriate. The petitioner
respectfully prays for it in propria persona and on behalf of a million people who are
comparatively helpless to confront the Power of the Sovereignty and all its bars, batons,
cuffs, chains, lethal needles, chemical irritants, and strange electrical devices.
Allowing incarcerated litigants to apportion fees—much like the Sixth Circuit
does—is a sound approach that avoids irrationality, ugly statutory surplusage, and grave
constitutional doubtfulness while assuring that all fees get paid in full as Congress
intended.

Respectfully submitted,

Richard A. Poplawski, petitioner, pro se
S.C.I. Phoenix, #KB7354 .
1200 Mokychic Drive
Collegeville, PA 19426

-y

Date

12

